Nos. 20-306 and 20-5649

In the Supreme Court of the United States
ROBERT OLAN AND THEODORE HUBER, PETITIONERS
v.
UNITED STATES OF AMERICA
DAVID BLASZCZAK, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITIONS FOR WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

MEMORANDUM FOR THE UNITED STATES

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

In the Supreme Court of the United States
No. 20-306
ROBERT OLAN AND THEODORE HUBER, PETITIONERS
v.
UNITED STATES OF AMERICA
No. 20-5649
DAVID BLASZCZAK, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITIONS FOR WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

MEMORANDUM FOR THE UNITED STATES

Petitioners contend (Olan & Huber Pet. 13-24;
Blaszczak Pet. 19-23; see also Worrall Br. 10-13) that
their convictions for wire fraud, in violation of 18 U.S.C.
1343 and 2; securities fraud, in violation of 18 U.S.C.
1348 and 2; conversion of government property, in violation of 18 U.S.C. 641 and 2; and conspiracy to commit
those offenses, in violation of 18 U.S.C. 371 and 1349,
are infirm because a federal agency’s predecisional,
confidential information about a regulation does not
constitute “property” under the federal fraud statutes

(1)

2
or a “thing of value” under the federal conversion statute. After the court of appeals issued its decision in this
case and denied rehearing, this Court decided Kelly v.
United States, 140 S. Ct. 1565 (2020), which held that “a
scheme to alter * * * a regulatory choice is not one to
appropriate the government’s property.” Id. at 1572
(citing Cleveland v. United States, 531 U.S. 12, 23
(2000)); see Olan & Huber Pet. App. 1a, 57a. The issue
of the potential effect, if any, of the Court’s decision in
Kelly on the court of appeals’ disposition of this case
was therefore discussed only in supplemental letters
addressing petitioners’ motions to stay the court of appeals’ mandate. The court granted those motions without a written opinion. A remand is appropriate under
the circumstances, because it would allow the court of
appeals to consider the issue in a different posture and
to provide a written decision that addresses it. Accordingly, the appropriate course is to grant the petitions
for writs of certiorari, vacate the decision below, and remand the case for further consideration in light of
Kelly. *
Respectfully submitted.
JEFFREY B. WALL
Acting Solicitor General

NOVEMBER 2020

The government waives any further response to the petitions for
writs of certiorari unless this Court requests otherwise.
*

